                            SOCIAL SECURITY
                                                                        Inspector General
                                     March 18, 2003

The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

In response to your October 10, 2002 questions from the Hearing on Preserving the
Integrity of Social Security Numbers and Preventing their Misuse by Terrorists and
Identity Thieves, I am pleased to provide you the enclosed report. Specifically, you
were interested in more background on the regulatory environment that allows
noncitizens to receive Social Security benefits based on unauthorized work. Our
objective was to review this regulatory framework and define the characteristics of
specific instances where unauthorized work later led to Social Security benefits.

The enclosed report contains information related to

   ·   the statutory and regulatory framework that allows benefits to be claimed by
       noncitizens working in the United States without authorization;
   ·   earlier audits highlighting benefits paid to individuals based on earnings under
       nonwork SSNs; and
   ·   sample cases where noncitizens appeared to be working without authorization
       and later collected benefits based on their earnings.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                             Sincerely,




                                             James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

         Social Security
    Administration Benefits
 Related to Unauthorized Work
          A-03-03-23053




          MARCH 2003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                    Background
In response to an October 10, 2002 request from the Chairman of the Subcommittee on
Social Security, we reviewed the statutory and regulatory framework that allows
noncitizens to receive Social Security benefits based on unauthorized work and defined
the characteristics of specific instances where such unauthorized work later led to
Social Security benefits.

ENTITLEMENT TO SOCIAL SECURITY BENEFITS
The Social Security Administration (SSA) provides Old-Age, Survivors and Disability
Insurance (OASDI) benefits to individuals based on their lifetime earnings reported
under a valid Social Security number (SSN).1 These earnings determine whether an
individual has enough quarters of coverage, or work credits, for insured status. Social
Security work credits are based on an individual's total annual wages or self-
employment income. An individual can earn up to four credits each year. The amount
needed for a credit changes from year to year. In 2002, for example, an individual
earned one credit for each $870 of wages or self-employment income. When an
individual earns $3,480, he or she has earned four credits for the year.

Wages reported under an invalid name and/or SSN cannot be posted to a unique
earner's account and instead accumulate in SSA's Earnings Suspense File (ESF). As
of July 2002, the ESF contained approximately 236 million wage items totaling about
$374 billion related to Tax Years (TY) 1937 through 2000. See Appendix B for more
information on this File.

To be entitled to OASDI benefits under his or her own record, an individual must

    ·   be insured;2
    ·   have filed an application; and
    ·   meet the age or disability requirements.3



1
 In accordance with the Social Security Act Section 205(c)(2)(A) and 20 CFR Section 422.103(a), SSA
maintains an earnings record for each SSN holder. This earnings information is maintained on SSA's
Master Earnings File. To have the wages count for purposes of later benefits, an individual must first
have worked in jobs where he or she paid Federal Insurance Contribution Act (FICA) taxes.
2
  The number of quarters of coverage required may be different depending on the type of benefits
involved and other factors.
3
 Through the OASDI program, entitled workers receive monthly benefits when they reach the appropriate
age or are found to have a disability that either prevents or can be expected to prevent them from
engaging in substantial gainful activity for at least 12 months, or can be expected to result in death.
Entitled members of a worker’s family can also receive monthly benefits based on the worker’s record.



SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                                1
SOCIAL SECURITY NUMBERS AND WORK AUTHORIZATION
                                                    To credit quarters of coverage to
                                                    an account for later benefits, SSA
                                                    issues each individual a unique
                                                    SSN.4 The Social Security cards
                                                    displaying this SSN also indicate
                                                    the individual’s right to work in the
                                                    United States. While U.S. citizens
                                                    are automatically entitled to work
                                                    in the economy, noncitizens may
                                                    not have this same right. Nonwork
                                                    SSNs may be issued to
                                                    noncitizens who meet certain
                                                    requirements but are not
authorized by the Immigration and Naturalization Service (INS) to work in the United
States. The Social Security card issued to these noncitizens notes that the SSN is "Not
Valid for Employment."

The original Social Security Act, Public Law (P.L.) 74-271, enacted August 14, 1935,
included no provision for issuing nonwork SSNs. However, as other Federal and private
entities started using the SSN, it became apparent that many noncitizens who were
lawfully present in the United States without work authorization needed SSNs for other
purposes. Therefore, SSA began issuing nonwork SSNs to these noncitizens. In
March 1974, SSA published regulations authorizing the issuance of nonwork SSNs.5

As of August 1997, SSA had issued approximately 7 million nonwork SSNs. Until
recently, SSA issued nonwork SSNs to individuals who may have been unauthorized to
work but needed an SSN to

      ·   obtain a State driver’s license;
      ·   receive other federally funded benefits or services;
      ·   receive State or local general assistance benefits; or
      ·   meet specific tax and banking purposes.

However, in recent years, the number of nonwork SSNs issued has declined as SSA
has strengthened controls over the issuance of nonwork SSNs (see Figure 1). In March
2002, SSA provided additional guidance to its field offices limiting the reasons for
issuing nonwork SSNs, such as specifically eliminating their issuance solely for a



4
  If an individual reports earnings under an invalid name and/or SSN, these wages cannot be posted to a
unique earner’s account and instead accumulate in the ESF. See Appendix B for more information on
this file.
5
    39 Fed. Reg. 10241 (March 19, 1974).


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                                 2
driver's license.6 Under this policy, noncitizens should only be issued an SSN because
(1) a Federal statute or regulation requires that the noncitizen provide his or her SSN to
get the particular benefit or service or (2) a State or local law requires that the
noncitizen provide his or her SSN to get general assistance benefits to which the
noncitizen has established entitlement.7



                                 Figure 1: Number of Nonwork SSNs
                                           Issued Annually
                                 140,000

                                 120,000
            Number of Nonworkk




                                 100,000
               SSNs Issued




                                  80,000

                                  60,000

                                  40,000

                                  20,000

                                      0
                                           1998   1999       2000        2001   2002
                                                         Calendar Year




6
  Because of a December 2002 lawsuit, SSA has returned to its previous policy of allowing the issuance
of SSNs to obtain driver's licenses. (Iyengar v. Barnhart, Civ. No. 02-0825, 2002 U.S. Dist. LEXIS 22668
[Nov. 26, 2002]). SSA has drafted new regulations regarding the use of nonwork SSNs and forwarded
these regulations to the Office of Management and Budget for review and approval. Once approved,
SSA intends to share the new regulations with the States and eliminate the issuance of SSNs to obtain a
driver's license.
7
  Program Operations Manual System (POMS), section RM 00203.510, Alien Without Work Authorization
- Nonwork Need For an SSN.


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                              3
                                                  Results of Review
The following sections provide information on (1) the statutory and regulatory framework
allowing benefits to be claimed by noncitizens working in the United States without
authorization; (2) earlier audits highlighting benefits paid to individuals based on
earnings under nonwork SSNs; and (3) sample cases where noncitizens appeared to be
working without authorization and later collected benefits based on their earnings.

UNAUTHORIZED WORK AND SSA BENEFITS
Current Social Security laws and regulations only sometimes differentiate between
citizens and noncitizens for the purpose of determining quarters of coverage. As a
result, in many cases SSA creates a work history for individuals with valid SSNs,8 even
when some of the earnings

·     occurred under nonwork SSNs or
·     belonged to noncitizens who were in the United States illegally or were otherwise
      unauthorized to work at the time of their unauthorized earnings but who later
      obtained a valid SSN.

The Social Security Act allows OASDI benefits to be paid to entitled noncitizens
regardless of their authorization to work in the economy at the time of their earnings.
Section 210(a) of the Social Security Act9 defines the term “employment” as
      …any service performed after 1936 and prior to 1951 which was employment for the
      purposes of this title under the law applicable to the period in which such service was
      performed, and any service, of whatever nature, performed after 1950 … by an
      employee for the person employing him, irrespective of the citizenship or residence
      of either.…[emphasis added]




8
    A valid SSN is one that matches the name and date of birth on SSA's records.
9
    42 U.S.C. Section 410(a).



SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                       4
While section 210 addresses noncitizen status in connection with certain discrete forms
of employment,10 in general, citizenship does not matter with regard to earning quarters
of coverage.11

In our discussion with SSA field office staff, we were told that, as long as a noncitizen
can prove that earnings belong to him or her, SSA will provide that individual earnings
credits. Once these earnings are recorded, the noncitizens may have sufficient quarters
of coverage to receive OASDI benefits.

In the 1980s, members of Congress questioned the legal framework that allowed
noncitizens to benefit from unauthorized work. For instance, we found that
amendments were proposed to (1) provide that benefits no longer be paid to noncitizens
not authorized to live and work in the United States and (2) place a limit on Social
Security benefits paid to illegal and nonresident noncitizens. Some of the reasons in
support of the amendments included protecting the trust funds and encouraging respect
for immigration laws. Reasons against the amendments included the Government's
responsibility to provide benefits where the taxes have been paid and potential
difficulties in administering a restriction on noncitizen benefits. While these
amendments never became law, they do provide an example of earlier concerns related
to the current policy (see Appendix C for more on these amendments).

UNAUTHORIZED WORK BY NONCITIZENS WITH NONWORK SSNs
Noncitizens have used nonwork SSNs to work in the U.S. economy, acquire quarters of
coverage, and later receive SSA disability and retirement benefits. The use of nonwork
SSNs for employment purposes has been the subject of previous audits, including two
SSA Office of the Inspector General (OIG) reviews and a separate review by the
Treasury Inspector General for Tax Administration (TIGTA).




10
  Section 210(a) contains provisions that may treat noncitizens differently. For instance, under section
210(a)(C)(1), “employment” does not include service performed by foreign agricultural workers lawfully
admitted to the United States on a temporary basis. In addition, under section 210(a)(B), only a “citizen
or resident of the United States” may have “employment” with an American employer outside the United
States. Moreover, a “nonresident alien” by definition cannot earn “self employment income” for Social
Security purposes under the definition of such income in section 211(b).
11
   However, the statute and regulations make clear that certain noncitizens in the country illegally may not
receive OASDI benefits. For instance, under section 202(y) of the Act, no monthly OASDI benefit may be
paid to any alien in the United States for any month during which the Attorney General determines he or
she is not lawfully present. Under section 202(n) of the Act, OASDI benefits are terminated for any
beneficiary who is deported, and may not be paid to any other auxiliary beneficiary who is not a citizen of
the United States and is outside the United States. Auxiliary beneficiaries, however, are otherwise not
affected by a worker's deportation. Under the Supplemental Security Income (SSI) program only legal
residents qualify for benefits. See 42 U.S.C. Section 1382c(a)(1)(B). SSI is authorized under title XVI of
the Act and provides monthly payments to aged, blind and disabled individuals based on financial need
and medical requirements.


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                                   5
Nonwork SSNs and SSA's Trust Fund

In a 1999 OIG audit,12 we estimated that unauthorized earnings associated with
nonwork SSNs may have already cost SSA’s trust funds $287 million and could cost the
trust funds as much as $63 million annually.13 Over the lifetimes of the nonwork SSN
holders and their dependents, we estimated that unauthorized earnings associated with
these nonwork SSNs may cost the trust funds over $1.7 billion. Our report
recommended that SSA propose legislation to prohibit the crediting of nonwork earnings
and related quarters of coverage for purposes of benefit entitlement.

In a 2002 OIG audit,14 we recommended enhanced controls over nonwork SSNs as well
as greater coordination between SSA and other Federal agencies to discourage illegal
employment. In the report, we noted data compatibility problems between SSA and the
INS that will need to be resolved to improve the information in both agencies'
databases. For instance, although SSA provides an annual report to the INS that
shows the number of SSNs assigned to noncitizens who are not authorized to work in
the United States,15 the audit found that resource priorities and data compatibility
problems prevent INS from making effective use of the earnings information SSA
provides. SSA and INS structure certain data fields differently, which makes it difficult
for the two Agencies to match records. Consequently, the INS cannot adequately
identify noncitizens who are employed illegally or employers who continually hire these
individuals. In TY 2000, earnings were reported for 599,097 individual nonwork SSNs.

SSA is not always aware of a change in circumstances that entitles an individual with a
nonwork SSN to work, noting that most individuals do not come to SSA to get an
amended SSN card and report their change in work status. SSA would need to
periodically confirm an individual’s work status with INS to be certain that specific
earnings occurred without proper work authorization. However, as we have noted, SSA
and INS need to resolve data sharing problems. As a result, SSA believes that some
percentage of the earnings credited to these nonwork SSNs is based on legal work,
which may impact our estimates on the amount of benefits being paid based on illegal
work.




12
     Review of Controls over Nonwork Social Security Numbers (A-08-97-41002), September 1999.
13
     This does not include any additional costs incurred by the Medicare program.
14
  Work Activity for Social Security Numbers Assigned for Nonwork Purposes in the State of Utah
(A-14-01-11048), March 2002.
15
  As indicated by the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (P.L. 104-208
Div C, Title IV, Subtitle B, Section 414(a)).



SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                                 6
Nonwork SSNs and Earned Income Tax Credits

Unauthorized work performed by noncitizens using nonwork SSNs has impacted other
Federal agencies as well. For example, a 2001 TIGTA report16 found that, each year,
an average $700 million in potentially erroneous Earned Income Credit (EIC) claims
was paid to an average 334,000 individuals using nonwork SSNs. These individuals
may erroneously receive the EIC because the Internal Revenue Service (IRS) does not
have a process to identify and stop those tax returns before the refunds are issued. In
August 1996, the IRS was authorized to deny claims for the EIC by individuals who filed
tax returns with nonwork SSNs issued to obtain Federal benefits.

UNAUTHORIZED WORK BY NONCITIZENS WITHOUT SSNs
SSA's practice allows noncitizens to work illegally in the U.S. economy for a number of
years, eventually acquire a valid SSN and have these earnings posted to their valid
SSNs, and then receive OASDI benefits as a result of those earnings. As noted earlier,
SSA does not consider the work-authorization status of the individual when they earned
the wages; it only considers whether the individual can prove he or she paid Federal
Insurance Contribution Act (FICA) taxes as part of this work.

For example, if the noncitizen was working in the United States illegally using an invalid
SSN for a number of years (that is, SSA never issued the SSN), SSA would place these
earnings into the ESF for later resolution. If this same noncitizen later receives a valid
SSN and becomes eligible to work, he or she can request that the earnings for prior
illegal work be reinstated from the ESF into his or her earnings record. We reviewed
SSA earnings reinstatement guidance to its teleservice center representatives and
found that this guidance provided no cautionary language related to the noncitizen’s
status when the wages were earned.17 This guidance allows the representative to
reinstate past wages if

     1.   the caller has a Wage and Tax Statement (Form W-2) in his or her possession;
     2.   the information on the W-2 matches the name and/or SSN in SSA's records;18
     3.   wages are found in the ESF; and
     4.   wages found in the ESF match the wages on the caller's W-2.

Once these earnings are recorded, the individuals may have sufficient quarters of
coverage to receive OASDI benefits.


16
  Substantial Earned Income Credit is Paid to Non-Entitled Individuals Who Use Not Valid for Work
Social Security Numbers, Reference Number: 2001-40-185, TIGTA, September 28, 2001.
17
  POMS, section RM 01310.042, and the Teleservice Center Operation Guide, Earnings Inquires and
Discrepancies.
18
  If the information on the W-2 matches the name and SSN in SSA’s records, the item will not post to the
ESF unless it it for earnings after death or earnings of a child under the age of 7.



SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                              7
It should be noted that, although noncitizens may be residing and working illegally in the
United States, they are contributing their labor, paying required taxes, and accumulating
an earnings record with SSA in the same manner as legal workers. SSA's policy of
allowing such workers who obtain legitimate SSNs to recreate their earnings records to
receive SSA benefits is drawn from the Agency's mission, history, and understanding of
the Social Security Act, rather than from a lack of concern for immigration law.

Review of Two Reinstatement Cases

During an ongoing audit,19 we found information related to two individuals who may
have been in the country illegally while working and paying FICA taxes. At the time of
our review, one individual was receiving disability benefits, and the other was receiving
retirement benefits. The following paragraphs describe the circumstances surrounding
each case, including the information found in SSA's Numident file, earnings records,
and payment systems. In addition, we reviewed the original Application for a Social
Security Card (Form SS-5) and verified the immigration information with the INS for both
cases.20

The first case involved a woman born in Mexico who worked illegally under an invalid
SSN for 6 years.21 She was later enumerated, had the earlier wages reinstated to her
earnings record, and started receiving SSA disability benefits. After reviewing SSA's
records, we determined the woman began working in 1992 but was not issued an SSN
until August 1997. For 6 years, she used her own name, along with an invalid SSN, for
employment purposes. In early 1999, SSA posted her past wages under her valid SSN.
The total wages reinstated for the 6 years she worked under an invalid SSN totaled
about $83,300. She began collecting disability benefits in August 1999 under her valid
SSN. During Calendar Years (CY) 1999 to 2002, this woman collected approximately
$26,990 in disability benefits. 22




19
     Utility of Earnings Wage Records in the Earnings Suspense File, (A-03-02-22076), ongoing.
20
  We cannot determine whether these individuals became legal residents through the Immigration
Reform and Control Act (IRCA) of 1986 P.L. 99-603, Section 201(a). This law granted amnesty to
undocumented immigrants in the United States who could show they had been in the United States since
1982 except for "brief” and “casual” absences. Id. There was a 1-year period to apply for benefits under
IRCA, between May 5, 1987 and May 5, 1988. 8 C.F.R. Section 245a.2. Nonetheless, both individuals
obtained valid SSNs after working under other individuals' SSNs. The issue in this report is whether
these earlier wages should be posted to their new SSN and not whether they were later entitled to
residency in the United States.
21
  From 1992 through 1995, the SSN was invalid because SSA had yet to assign it. From 1996 through
1997, the SSN was assigned to a woman from the Philippines who was last residing in California. A
review of this woman's earnings history indicates the earnings related to the unauthorized work were
never posted to her record.
22
  This amount includes $21,604 in benefits for the primary beneficiary and $5,386 in benefits for auxiliary
beneficiaries.


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                                 8
The second case involved a man born in Mexico who worked under his father's SSN for
9 years and then had these wages transferred to his newly acquired SSN before
collecting retirement benefits.23 After reviewing SSA's Numident file and earnings
records, we determined this individual had worked under his father's SSN from 1971
through 1979.24 The individual was issued a valid SSN in 1989, and his previous wages
were reinstated in 1998. SSA's records related to the reinstatement note that this
individual "used his father's SSN for several years…father…signed a statement to
advise that it was ok for the earnings to transferred [sic] over to his son.…" In February
1999, this individual began collecting retirement benefits under his valid SSN. During
CYs 1999 to 2002, he collected approximately $11,441 in retirement benefits. 25 See
Table 1 for a timeline related to both cases discussed above.

               Table 1: Earnings and Benefit Timeline for Cases Reviewed

           Case Characteristics                 Case Number 1               Case Number 2

      Date Work Began                                       1992                         1971
      Date SSN Issued                                       1997                         1989
      Date Wages Reinstated                                 1999                         1998
      Reinstated Wages                                   $83,300                     $21,700 (1)
      Date of SSA Benefits                                  1999                         1999
      Type of SSA Benefits                              Disability                 Retirement
      Monthly Benefit Amount Paid                        $583.70                      $174.20
      to Primary Beneficiary
      SSA Benefits Through                                $26,990                      $11,441
      Calendar Year 2002(2)
     Notes to table:
     (1) The $21,700 relates to wages earned under the father’s SSN. Another $12,900 was
     earned under three additional SSNs from 1989 to 1993.
     (2) Includes both primary and auxiliary benefits. Children, widows, spouses, and parents who
     receive OASDI benefits based on another wage earner’s Social Security record are referred
     to as auxiliary beneficiaries.

In neither of the above cases did we find any indications that SSA questioned the
individual’s right to be working in the U.S. economy or reported the incident to the OIG.
For instance, the individual working under his father's SSN had wages reinstated from



23
   Before the transfer of these earnings to his son, the father collected approximately $11,300 in Social
Security benefits; without these earnings, he would not have had enough quarters of coverage of his own
to qualify for such benefits. This $11,300 appears to be an improper payment to the father that SSA has
made no attempt to date to recover.
24
 This individual also worked under 3 additional SSNs that did not belong to him from 1989 through 1993.
SSA did not record any earnings for this individual from 1980 to 1988.
25
  This amount includes $7,695 in benefits for the primary beneficiary and $3,746 in benefits for auxiliary
beneficiaries.


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                                    9
10 different employers, primarily in the agriculture sector, but SSA staff did not make
any annotations to the system questioning the movement from the father's earnings
record to the son's earnings record.

NONCITIZENS AND THE ESF
Wages reported by noncitizens may also increase the number of wage items posted to
SSA's ESF. As noted earlier, when wages cannot be posted to earners’ records
because of name and SSN mismatches, SSA places the wages in the ESF. While
wages for nonwork SSNs are posted directly to the noncitizen's earnings record, if a
noncitizen lacks a valid name and SSN combination, those wages will accumulate in the
ESF. See Figure 2 for a flowchart describing the wage posting process for noncitizen
wages.

                Figure 2: Wage Posting Process for Specific
                           Noncitizen Situations
                                   Noncitizens with Nonwork SSNs

                                                                                                       Master
        Noncitizen                                                                                    Earnings
        Wages with                                                                                      File
         Nonwork
                                   Automatically Posted to the MEF                                     (MEF)
          SSNs




                                     Noncitizens without SSNs

         Noncitizen
                                                       Earnings
         Wages with                                    Suspense                                           MEF
            Bad                Suspended               File (ESF)
         Name/SSN                                                             Posted to the
                                 Under                                         MEF When
                               SSA’s Edits                                    Later Claimed
     Note 1: Although a noncitizen can also be using another person’s name and SSN, when these wages are
     later reported to another account SSA must first place the wages into the ESF and then post them to the MEF.




Noncitizens working in the U.S. economy without a valid SSN sometimes earn their
wages under another individual's SSN or create an SSN, both of which are forms of
potential SSN misuse (see Appendix D).26 Regardless of which method is used, these
earnings continue to represent an administrative burden for SSA as it attempts to post




26
  The use of another person's name and SSN is potentially identity theft. These forms of misuse could
also relate to violations of immigration laws.



SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                                           10
wages to the proper earner's account. SSA must perform costly operations to locate
the correct owner of these wages. SSA has recently noted that these costs include27

·    $5.4 million in TY 2001 to send notices to every individual whose name and SSN do
     not match SSA's records;
·    $600,000 in TY 2001 to send 944,000 notices to all employers who had an item
     posted to the ESF;
·    over $200,000 for system maintenance and cyclical changes; and
·    an average of $9.00 for each call to SSA's national 800-number generated by the
     notices. SSA estimated the Agency received about 100,000 inquiries about the TY
     2001 letters.

We have placed the ESF on our Major Management Challenges list for several years
because of our concerns about the File's size and continued growth.28 The ESF will
continue to grow as long as earnings are reported under incorrect name and SSN
combinations, and the current policies allowing noncitizens to benefit from potential
SSN misuse and/or identity theft will do little to discourage such growth. In fact, these
provisions may hinder SSA's ability to reduce the growth of the ESF in the future.

FUTURE AGREEMENTS AND REINSTATED WAGES
SSA's policy of crediting wages to individuals who worked in the economy illegally may
have even greater implications in the future. For example, the Government has
discussed the idea of a future amnesty agreement for Mexican citizens residing illegally
in the United States. If an amnesty agreement occurs, one result may be that Mexican
citizens who have been in the country illegally would be allowed to obtain valid SSNs
from SSA and may become entitled to their past quarters of coverage, regardless of any
name or SSN they used in the past. In addition, the Government is considering a
totalization agreement with Mexico.29 While SSA has prepared a memorandum




27
   Questions for the Record from the September 19 Hearing, SSA Letter to the Honorable E. Clay Shaw,
Jr., Chairman, Subcommittee on Social Security, Committee on Ways and Means, House of
Representatives, December 30, 2002.
28
  Inspector GeneralStatement on the Social Security Administration's Major Management Challenges,
(A-02-03-13034), November 2002.
29
  The Social Security Amendments of 1977 authorized the President to enter into bilateral agreements
with other countries to provide for coordination between the Social Security systems of the United States
and other countries (P.L. 95-216, Title III, Part B, Section 317). A totalization agreement would help
many people who, without the agreement, would not be eligible for monthly retirement, disability or
survivors benefits under the Social Security system of one or both countries. It also helps many people
who would otherwise have to pay Social Security taxes to both countries on the same earnings. The
United States has totalization agreements with 20 countries. See 42 U.S.C. Section 433.




SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                               11
estimating the number of Mexicans who may apply for benefits under the proposed
totalization agreement, the treatment of unauthorized work was not discussed.30

According to INS statistics, about 5 million undocumented immigrants were residing in
the United States in October 1996.31 An estimated 2.7 million (54 percent) of these
undocumented immigrants were of Mexican origin (see Table 2). If these Mexican
noncitizens are also working in the United States illegally, and an amnesty and/or
totalization agreement occurs, SSA potentially may need to reinstate a large volume of
wages from the ESF based on earlier unauthorized work.

Table 2: Estimated Illegal Immigrant Population for Top 10 Countries of Origin
                            (INS Data as of October 1996)

                 Country of              Number of Illegal           Percent of Total
                   Origin                  Immigrants                  Immigrants
           Mexico                               2.7 million                54
           El Salvador                            335,000                  6.7
           Guatemala                              165,000                  3.3
           Canada                                 120,000                  2.4
           Haiti                                  105,000                  2.1
           Philippines                             95,000                  1.9
           Honduras                                90,000                  1.8
           Dominican Republic                      75,000                  1.5
           Nicaragua                               70,000                  1.4
           Poland                                  70,000                  1.4
           All Other Countries                  1.2 million                24
           Total                                  5 million               100
          Source: 2000 Statistical Yearbook of the Immigration and Naturalization Service.




30
  Estimated Financial Effects of a Proposed Totalization Agreement Between the United States and
Mexico on Their Respective Social Security Programs - INFORMATION, Letter from Chris Chaplain and
Nettie Barrick, SSA actuaries, to Stephen C. Goss, SSA's Chief Actuary, November 8, 2002.
31
     2000 Statistical Yearbook of the Immigration and Naturalization Service, INS.




SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                       12
                                                                 Conclusions
Under the current statutory and regulatory framework, the Social Security Act often
does not prohibit noncitizens from claiming entitlement to Social Security benefits based
on earnings derived from covered employment in the United States, even if the
individuals were illegal residents, or legal residents who had engaged in unauthorized
employment. As a result, while SSA is adhering to the Social Security Act in terms of
paying benefits to such persons, these statutory requirements are benefiting noncitizens
whose work activities are not consistent with U.S. immigration laws. In some specific
cases, this practice may also be inconsistent with other provisions, such as certain
penalties in section 208 of the Social Security Act and the Identity Theft and Assumption
Deterrence Act.

Consequently, noncitizens, whether here legally or illegally, continue to engage in
unauthorized employment and earn entitlement to Social Security benefits. If SSA's
treatment of noncitizen illegal employment is to change, it will be necessary for current
laws to be modified.

With respect to nonwork SSNs, we have made recommendations to discourage illegal
employment. In our previous reports, we recommended the following

·     SSA propose legislation to prohibit the crediting of nonwork earnings and
      related quarters of coverage for purposes of benefit entitlement.32 However, the
      Agency noted the issue of unauthorized work can be dealt with more effectively
      through (1) pilot projects for determining work eligibility than through a legislative
      proposal and (2) limiting the issuance of nonwork SSNs. In our response, we
      commended SSA for its participation in pilot projects with the INS and its proposed
      efforts to amend the regulations pertaining to the issuance of nonwork SSNs.
      However, we stated we did not believe these initiatives sufficiently addressed
      nonwork SSNs used in the past to illegally obtain employment in the United States.
      Specifically, neither of these actions addressed (1) wages already posted as a result
      of unauthorized work or (2) future earnings of employees who continue to work
      illegally in their present jobs.

·     SSA should work with the INS to resolve data compatibility problems between
      SSA and the INS to improve the information in both agencies' databases.33 In
      its response, SSA stated it is preparing to capture information that will help resolve
      data compatibility problems with the INS. Improved coordination between SSA and
      the INS is critical to successfully prevent illegal employment in the future.



32
     Review of Controls over Nonwork Social Security Numbers (A-08-97-41002), September 1999.
33
  Work Activity for Social Security Numbers Assigned for Nonwork Purposes in the State of Utah
(A-14-01-11048), March 2002.


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                        13
With respect to noncitizen work without an SSN, SSA may need to consider these
potential wage reinstatements in future workload plans. In addition, SSA needs to
consider how its current policy to reinstate wages related to unauthorized work by
noncitizens impacts

·   growth of the ESF;
·   consistency with immigration and SSN misuse legislation; and
·   conformance with ongoing Government efforts to identify and deter illegal
    immigration.




SSA Benefits Related to Unauthorized Work (A-03-03-23053)                            14
                                      Appendices
  Appendix A – Acronyms
  Appendix B – Background on the Earnings Suspense File
  Appendix C – Summary of Earlier Congressional Discussions on
                     Restricting Benefits to Noncitizens
  Appendix D – Selected Social Security Number Misuse and Identity
                     Theft Provisions
  Appendix E – Scope and Methodology
  Appendix F – OIG Contacts and Staff Acknowledgments




SSA Benefits Related to Unauthorized Work (A-03-03-23053)
                                                                     Appendix A
Acronyms
    CY                 Calendar Year

    EIC                Earned Income Credit

    ESF                Earnings Suspense File

    FICA               Federal Insurance Contribution Act

    Form SS-5          Application for a Social Security Card

    Form W-2           Wage and Tax Statement

    INS                Immigration and Naturalization Service

    IRCA               Immigration Reform and Control Act

    IRS                Internal Revenue Service

    MEF                Master Earnings File

    OASDI              Old-Age, Survivors and Disability Insurance

    OIG                Office of the Inspector General

    POMS               Program Operations Manual System

    QC                 Quarter of Coverage

    SSA                Social Security Administration

    SSN                Social Security Number

    TIGTA              Treasury Inspector General for Tax Administration

    TY                 Tax Year




SSA Benefits Related to Unauthorized Work (A-03-03-23053)
                                                                               Appendix B
Background on the Earnings Suspense File
Title II of the Social Security Act requires that the Social Security Administration (SSA)
maintain records of wages employers pay to individuals. Employers report their
employees’ wages to SSA at the conclusion of each tax year (TY). Wages on those
employer reports containing invalid names and/or Social Security numbers (SSN)
cannot be posted to an individual’s earnings record in SSA's Master Earnings File
(MEF).1 Instead, these wages are placed in the Earnings Suspense File (ESF) - a
repository for unmatched wages. Suspended wages can affect a worker's eligibility for
and/or the amount of retirement, disability, or survivor benefits. In addition, when wage
reports cannot be matched to the correct individual, both SSA and the employer incur
additional administrative costs in their efforts to correct unmatched wage reports.

As of July 2002, the ESF contained approximately 236 million wage items totaling about
$374 billion related to TYs 1937 through 2000 (see Figure 1). In TY 2000 alone, SSA
posted 9.6 million items and $49 billion in wages to the ESF. Wage items and their
associated dollar value are only removed from the ESF when the wages can be
matched and posted to an individual’s MEF.


                         FIGURE 1: STATUS OF THE EARNINGS SUSPENSE FILE
                                        (Tax Years 1937-2000)


                              $50
                              $45
                              $40
            Suspended Wages




                              $35
                              $30
                (Billions)




                              $25
                              $20
                              $15
                              $10
                               $5
                               $0
                                 37
                                 40
                                 43
                                 46
                                 49
                                 52
                                 55
                                 58
                                 61
                                 64
                                 67
                                 70
                                 73
                                 76
                                 79
                                 82
                                 85
                                 88
                                 91
                                 94
                                 97
                                 00
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              19
                              20




                                                   Tax Year




1
 The MEF contains all earnings data reported by employers and self-employed individuals. These data
are used to calculate the Social Security benefits due an individual with an earnings record.


SSA Benefits Related to Unauthorized Work (A-03-03-23053)
                                                                             Appendix C
Summary of Earlier Discussion on Restricting
Benefits to Noncitizens

Congress has discussed the pros and cons of providing Social Security benefits to
noncitizens. While we do not presume these comments are all-encompassing when
dealing with such a complex issue, we have provided some of the earlier arguments to
provide additional context.

Social Security Act Amendments of 19831
Wording of Amendment

To provide that benefits no longer be paid to noncitizens not authorized by law to live
and work in the United States.

Arguments in Support of the Amendment2

·   This amendment would give the Social Security Administration (SSA) authority to
    stop payment of benefits or credits from going to any noncitizen who violates U.S.
    employment and resident laws. In addition, it would require that the wage earner or
    dependent provide SSA sufficient evidence that vestige in the system was earned
    while working and living legally in the United States.

·   The present Social Security system was designed to benefit American workers or
    persons working legally in the United States. Many current beneficiaries, however,
    do not fall into either of these two categories. This amendment would restore Social
    Security to its original purposes and end the flow of billions of dollars to individuals
    who worked in this country illegally.

·   This amendment would encourage respect for the credibility of the Social Security
    system. This amendment would join with other provisions of this bill in signaling to
    the American people that this Congress aims to restore confidence in the Social
    Security system. This amendment is a strong and explicit statement of
    congressional will and purpose.




1
  Amendment number 92 to H.R. 1900, later to become P.L. 98-21. The amendment was not included in
the final law.
2                                         st
 Senate Record Vote Analysis (98th Cong., 1 Sess., March 18, 1983, 1:33 p.m., page S-3362 Temp.
Record, Vote No. 34).


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                         C-1
Arguments Against the Amendment3

·         This amendment would benefit from further study, committee hearings, and
          executive comment.

·         We lack the ability to construct administrative procedures to enforce the provisions
          of this amendment. The Social Security Administrator has testified before
          committees in the Senate and the House that SSA could not produce a tamper-proof
          Social Security card. If a noncitizen can purchase an "immigration kit" on any
          streetcorner in the Sun Belt, how are we to enforce the amendment?

·         SSA takes an employee's money without concern for that individual's noncitizen
          status. This amendment would allow these collections to continue but would prohibit
          any benefits from being paid. This is not just hypocritical but is actually a violation of
          our 14th amendment protection against confiscation of a person’s property.

Amendment to Concurrent Resolution on the Budget, Fiscal Year
19864
Wording of Amendment

To limit Social Security benefits paid to illegal and nonresident noncitizens.

Arguments in Support of the Amendment5

·         This amendment would state our intent to place a limit on Social Security benefits
          paid to illegal and nonresident noncitizens. We should support this approach for the
          following reasons

          ·   It is fair. It would give back what has been contributed, plus interest but would
              not continue the burden placed on the Social Security system and the American
              workers whose taxes support it. It would not ask hard-working, law-abiding
              citizens to keep working and paying increasing Social Security taxes so their
              money can be sent overseas or paid to those who have violated this Nation's
              laws.

          ·   It is logical. It would rectify a gross inconsistency in our laws, which allow a
              noncitizen who is living or working in this country illegally to earn and receive
              Social Security benefits.


3
    Id.
4                                                                          th
    Amendment number 62 to the Senate Congressional Resolution 32 of the 99 Congress.
5                                              st
 Senate Record Vote Analysis (99th Cong., 1 Sess., May 8, 1985, 11:50 a.m., page S-5611 Temp.
Record, Vote No. 50).


SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                         C-2
          ·   It is consistent with past Senate action. The limitation on nonresident noncitizen
              Social Security benefits was a part of the Senate Finance Committee’s version of
              the Social Security Amendments of 1983. Unfortunately, these provisions did not
              survive conference.

          ·   It is important. It would help bolster confidence in the minds of the American
              public in the Social Security system.

          ·   It is prudent. It would make a savings of approximately $100 million - not an
              insignificant sum at this time of deficit-reduction effort.

Arguments Against the Amendment6

·         We should oppose this proposal because it would only give more reason for an
          undocumented worker to cooperate in his or her exploitation by unscrupulous
          employers. Congress should promote compliance with our Social Security payroll
          tax laws and withholding of Federal and State income taxes.

·         We should note that, to be eligible for Social Security, a worker must have paid in for
          40 quarters, or 10 years. For a seasonal laborer, 40 quarters may be the equivalent
          of a lifetime of work. Workers in such situations have paid their way by their
          contributions to our economy.




6
    Id.




SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                      C-3
                                                                                 Appendix D

Selected Social Security Number Misuse and
Identity Theft Provisions

SOCIAL SECURITY ACT
In December 1981, Congress passed a bill to amend the Omnibus Reconciliation Act of
1981 to restore minimum benefits under the Social Security Act. In addition, the Act
made it a felony to
      …willfully, knowingly, and with intent to deceive the Commissioner of Social Security as to
      his true identity (or the true identity of any other person) furnishes or causes to be furnished
      false information to the Commissioner of Social Security with respect to any information
      required by the Commissioner of Social Security in connection with the establishment and
      maintenance of the records provided for in section 405(c)(2) of this title.1

Violators shall be guilty of a felony and upon conviction thereof shall be fined under title
18 or imprisoned for not more than 5 years, or both.

IMMIGRATION AND NATURALIZATION ACT
In November, 1986, Congress passed a bill to amend the Immigration and Nationality
Act to effectively control unauthorized immigration into the United States.2 Among other
things, the act established an employment verification system that requires the worker
to attest that he or she is a U.S. citizen or national, or authorized alien. Specifically, the
worker must

      …attest, under penalty of perjury on the form designated or established for purposes of
      paragraph (1), that the individual is a citizen or national of the United States, an alien
      lawfully admitted for permanent residence, or an alien who is authorized under this Act or by
      the Attorney General to be hired, recruited, or referred for such employment.3




1
  42 U.S.C. Section 408(a)(6). Unauthorized work activity involving SSN misuse may also violate
sections 208(a)(7)(A) and (B) of the Act. See 42 U.S.C. Sections 408(a)(7)(A) and (B).
2
    Public Law (P.L.) 99-603.
3
    8 U.S.C., Section 1324(b)(2).




SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                          D-1
IDENTITY THEFT AND ASSUMPTION DETERRENCE ACT

In October 1998, Congress passed the Identity Theft and Assumption Deterrence Act4
to address the problem of identity theft. Specifically, the Act made it a Federal crime
when anyone
      …knowingly transfers or uses, without lawful authority, a means of identification of
      another person with the intent to commit, or to aid or abet, any unlawful activity that
      constitutes a violation of Federal law, or that constitutes a felony under any applicable
      State or local law.5
Violations of the Act are investigated by Federal investigative agencies such as the U.S.
Secret Service, the Federal Bureau of Investigation, and the U.S. Postal Inspection
Service and prosecuted by the Department of Justice.




4
    P.L. 105-318.
5
    18 U.S.C. Section 1028(a)(7).




SSA Benefits Related to Unauthorized Work (A-03-03-23053)                                         D-2
                                                                       Appendix E
Scope and Methodology
To respond to the Chairman's request, we

·      reviewed prior audit reports dealing with unauthorized employment, nonwork
       Social Security numbers and Social Security benefits paid to noncitizens;

·      reviewed applicable Social Security Administration (SSA) policies and
       procedures;

·      reviewed legal information provided by our Office of the Counsel to the Inspector
       General;

·      interviewed staff at the SSA’s Office of General Counsel as well as field office
       personnel to document the current policies and procedures;

·      obtained copies of the original Application for a Social Security Card (Form SS-5)
       from Boyers, Pennsylvania, (for case 1 and case 2) to determine whether the
       proper evidence was submitted for enumeration purposes and verified this
       information against the Immigration and Naturalization Service databases; and

·      queried the Social Security Administration’s various electronic records, including
       information found in the Numident, earnings records, and payment systems, to
       determine the timing of events and the impact on the trust funds.

The entities responsible for reinstating wages are the field offices and program service
centers under the Deputy Commissioner of Operations. Our work was conducted at the
Office of Audit in Philadelphia, Pennsylvania, from November 2002 to January 2003.
We conducted our review in accordance with generally accepted government auditing
standards.




SSA Benefits Related to Unauthorized Work (A-03-03-23053)
                                                                         Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, (215) 597-4080

   Rona Rustigian, Director, (617) 565-1819

Acknowledgments
In addition to those named above:

   Judy Ringle, Attorney

   Mildred Soto, Auditor

   Frank Trzaska, Auditor-in-charge



For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-03-23053.




SSA Benefits Related to Unauthorized Work (A-03-03-23053)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Income Maintenance Branch, Office of Management and Budget
Chairman, Committee on Ways and Means
Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security
Ranking Minority Member, Subcommittee on Social Security
Majority Staff Director, Subcommittee on Social Security
Minority Staff Director, Subcommittee on Social Security
Chairman, Subcommittee on Human Resources
Ranking Minority Member, Subcommittee on Human Resources
Chairman, Committee on Budget, House of Representatives
Ranking Minority Member, Committee on Budget, House of Representatives
Chairman, Committee on Government Reform and Oversight
Ranking Minority Member, Committee on Government Reform and Oversight
Chairman, Committee on Governmental Affairs
Ranking Minority Member, Committee on Governmental Affairs
Chairman, Committee on Appropriations, House of Representatives
Ranking Minority Member, Committee on Appropriations,
 House of Representatives
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate
Chairman, Committee on Finance
Ranking Minority Member, Committee on Finance
Chairman, Subcommittee on Social Security and Family Policy
Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman, Senate Special Committee on Aging
Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
